                                                         u.s. OFFICE OF PERSONNEL MANAGEMENT
                                                                      OFFICE OF THE INSPECTOR GENERAL
                                                                                       OFFICE OF AUDITS




                                      Final Audit Report 


Subject:


. AUDIT OF THE INFORMAnON TECHNOLOGY 

         SECURITY CONTROLS OF THE 

. U.S. OFFICE OF PERSONNEL MANAGEMENT'S 

            INTEGRATED SECURITY 

            MANAGEMENT SYSTEM 

                   . FY2009 

                                               Report No. 4A-CJ-OO-09-0S2


                                               Date:                   'August 10,                20°9




                                                               --CAUTION-
Till.!; HId;! reprwll"u keD distribuTed to F«Iual offici1lls ,.'ho I r t respoosiblt for lilt tlhnillisu-alioll of 'b~ IBwt(U pl'ognru. Tbi$lUdil
n:pnrt m~,. (011(.1;11 po-oprit'llf)' d~t" "lIltb is jlr\llc(ltd by Federal bw (18 V.S.c. 1905). l'bfltf... tt, while Ihis auElit report is .v.Hablf
undtr llu F,'«dom _oO"renuaIOoli AU_lid m.dt ",,,;tibbie I.., Hit public 0)0 Ih~ OlG WtbpJgt"UMliollllfC.n h. b.e o erased bffl}n
                                                                                                 ""$
rtlcJ$i'Elt !h~ reporl (0 the gutul l!llb/ie IS it JIl~ Y cl).. '~iB I'rIlJ-.rJtt~ty iDform~tiolJ Ih21 rtdatltd frolll the pu blidy lIi$lrilmluJ CUllY.
                          UNITED STATES OFFICE OF PERSONNEL MANAOEMENT 

                                            Washillglon, DC 20415 


   Office of the
Inspeclor G(JJ(ra]

                                            Audit Report


                             u.s. OH'ICE OF PERSONNEL MANAGEMENT
                        AUDIT OF TIlE INFORMATION TECHNOLOGY SECURITY 

                     CONTROLS OF THE U.S. OFFICE OF PERSONNEL MANAGEMENT'S 

                           INTEGRA TED SECURITY MANAGEMENT SYSTEM 

                                              FY2009 


                                           WASHINGTON, D.C.




                                   Report No. 4A-CI-OO-09-0S2


                                   Date:             August 1 Q .     2009




                                                                 ""Michael R. Esser
                                                                  Assistant Inspector General
                                                                     for Audits



         ww.... opm.gav
                         UNITED STATES OFRCE OF PERSONNEL MANAGEMENT 

                                                Wl:tshjngloo, DC 20415 


  Office of the
Inspector General

                                           Executive Summary

                              u.s. OFFICE OF PERSONNEL MANAGEMENT

                       AUDIT 0)' THE IN}'ORMATION TECHNOLOGY SECURITY
                    CONTROLS OF THE U.S. OFFICE OF PERSONNEL MANAGEMENT'S
                          INTEGRATED SECURITY MANAGEMENT SYSTEM
                                             FY2009

                                              WASHINGTON, D.C.




                                       Report No. 4A-CI-OO-09-0S2


                                       Date:             August 10, 2009

        TIllS final audit rcport discusses the results of our review of the infonnation technology security
        controls of the U.S. Office of Personne) Management's (OPM) lntegrated Security Management
        System (ISMS). Our conclusions ate detailed in the "Results" section of this report.

        The results of our audit are summarized below:

        • 	 OPM's legacy physical security system, Identipass, was decommissioned on January 23,
             2009, and was replaced by the new ISMS system on that date. ISMS went through a
            ,certification and accreditation process prior to being placed into production. Although an
             accreditation statement was signed prior to placing the system into production, a certification
             letter had not been signed at this time. The certification letter for ISMS was signed
             retroactively by OPM's acting Jnfonn3tion Technology Security Officer.
        • 	 A security categorization analysis was performed for ISMS. We determined that this
            evaluation was compliant with Federal Information Processing Standards Publication 199
            and Na'tional Institute of Standards and Technology (N1ST) requirements, and agrees ",>ith
            the over.ill security categorization of moderate for ISMS.
        • 	 An information system security plan was developed for ISMS using the security plan
            template outJjned in the NIST Special Publication 800-18 Revision 1, Guide for Developing
            Security Plans for Federal Information Systems.


                                           - - - - - i - -- - --             - --        -   -   --=-        =
                                                                                                  ......... o.luJobs .IOV 

• 	 An independent security control test and evaluation was perfonned for ISMS during the
    certification and accreditation process.
• 	 A self-assessment of security controls was not required for ISMS in fiscal year 2009.
• 	 A contingency plan has been developed and tested for ISMS. However, the contingency plan
    could be improved with additional details for the recovery procedures and by assigning
    specific individuals to the recovery tearns outlined in the contingency plan.
• 	 A plan of action and milestones document has been created for ISMS to track security
    weaknesses of the system, although it did not prioritize the identified security weaknesses.
• 	 We independently tested 22 security controls for ISMS and found that 4 of the security
    controls were not in place during the fieldwork phase of the audit. Three of the four failed
    controls were corrected during the reporting phase of the audit, but the fourth control has not
    been implemented.




                                                 ii
                                                                 Contents 


Executive Summary ..........................................................................................................................i 

Introduction ..................................................................................................................................... 1 

Background...................................................................................................................................... 1 

Objectives ........................................................................................................................................ 1 

Scope and Methodology .................................................................................................................. 2 

Compliance with Laws and Regulations ......................................................................................... 3 

Results ............................................................................................................................................. 4 

        L Certification and Accreditation ........................................................................................... 4 

       II. Federal Information Processing Standards Publication 199 Analysis ................................ .4 

      III. Information System Security Plan .......................................................................................5 

     IV. Independent Security Control Testing and Risk AssessmenL ............................................5 

      V. Security Control Self-Assessment ....................................................................................... 6 

     VI. Contingency Planning ..........................................................................................................6 

    VII. Plan of Action and Milestones Process ............................................................................... 8 

  VIII. NIST SP 800-53 Evaluation ................................................................................................ 9 

Major Contributors to this Report ................................................................................................. 12 

Appendix: Center for Security and Emergency Actions' July 15,2009 response to the OIG's 

          draft audit report, issued June 25,2009. 

                                         Introdnction 

On December 17,2002, President Bush signed into law the E-Government Act (P.L. 107-347),
which includes Title III, the Federal Infonnation Security Management Act (FISMA). It requires
(1) annual agency program reviews, (2) annual Inspector General (lG) evaluations, (3) agency
reporting to the Office of Management and Budget COMB) the results of IG evaluations for
unclassified systems, and (4) an annual OMB report to Congress summarizing the material
received from agencies. In accordance with FISMA, we evaluated the infonnation technology
(IT) security controls related to the Office of Personnel Management's (OPM) Integrated
Security Management System (ISMS).

                                         Background
ISMS is one ofOPM's 41 critical IT systems. As such, FISMA requires that the Office of the
Inspector General (OIG) perfonn an audit ofIT security controls of this system, as well as all of
the agency's systems on a rotating basis.

The Center for Security and Emergency Actions (CSEA) has been designated with ownership of
ISMS. ISMS is used to monitor and control employee, visitor, and guest access to OPM's
Theodore Roosevelt Building (TRB) in Washington, D.C. The system is also used to limit
access into designated restricted or controlled areas within the TRB. The primary component of
ISMS is the C*Cure ID Badging system, which utilizes electronic access cards to operate
network based access panels, door locks, turnstyles, and card readers.

This was our first audit of the security controls surrounding ISMS. We discussed the results of
our audit with CSEA representatives at an exit conference.

                                          Objectives
Our overall objective was to perfonn an evaluation of security controls for ISMS to ensure that
CSEA officials have implemented IT security policies and procedures in accordance with
standards established by OPM's Center for Information Services (CIS).

These policies and procedures are designed to assist program office officials in developing and
documenting IT security practices that are in substantial compliance with FISMA, as well as
OMB regulations and the Natioual Institute of Standards and Technology (NIST) guidance.

OPM's IT security policies and procedures require managers of all major and sensitive systems
to complete a series of steps to (1) certify that their system's infonnation is adequately protected
and (2) authorize the system for operations. The overall audit objective was aceomplished by
reviewing the degree to which a variety of these security program steps have been implemented
for ISMS, including:

•   Certification and Accreditation (C&A);
•   Federal Information Processing Standards (FIPS) Publication 199 Analysis;



                                                  1
•	   Information System Security Plan;
•	   Independent Security Control Testing and Risk Assessment;
•	   Security Control Self-Assessment;
•	   Contingency Planning;
•	   Plan of Action and Milestones (POA&M) Process; and
•	   Evaluation ofNIST Special Publication (SP) 800-53 Security Controls.

                                Scope and Methodology
This performance audit was conducted in accordance with Govermnent Auditing Standards,
issued by the Comptroller General of the United States. Accordingly, the audit included an
evaluation of related policies and procedures, compliance tests, and other auditing procedures
that we considered necessary. The audit covered FISMA compliance efforts of CSEA officials
responsible for ISMS, including IT security controls in place as of June 2009.

We considered the ISMS internal control structure in planning our audit procedures_ These
procedures were mainly substantive in nature, although we did gain an understanding of
management procedures and controls to the extent necessary to achieve our audit objectives.

To accomplish our objective, we interviewed representatives ofOPM's CSEA office and other
program officials with ISMS security responsibilities_ We reviewed relevant OPM IT policies
and procedures, federal laws, OMB policies and guidance, and NIST guidance. As appropriate,
we conducted compliance tests to determine the extent to which established controls and
procedures are functioning as required.

Details ofthe security controls protecting the confidentiality, integrity, and availability oflSMS
are located in the "Results" section oftrus report. Since our audit would not necessarily disclose
all significant matters in the internal control structure, we do not express an opinion on the ISMS
system of internal controls taken as a whole.

The criteria used in conducting this audit include:

• 	 OPM IT Security Policy;
• 	 OMB Circular A-130, Appendix III, Security of Federal Automated Information Resources;
• 	 E-Govermnent Act of2002 (PL. 107-347), Title III, Federal Information Security
    Management Act of2002;
• 	 NIST SP &00-12, An Introduction to Computer Security;
• 	 NIST SP 800-18 Revision 1, Guide for Developing Security Plans for Federal Information
    Systems;
• 	 NIST SP 800-30, Risk Management Guide for Information Technology Systems;
• 	 NIST SP &00-34, Contingency Planning Guide for Information Technology Systems;
• 	 NIST SP 800-37, Guide for the Security Certification and Accreditation of Federal
    Information Systems;
• 	 NIST SP 800-53 Revision 2, Recommended Security Controls for Federal Information
    Systems;



                                                 2

• 	 NIST SP 800-60 Volume II, Guide for Mapping Types ofInformation and Information
    Systems to Security Categories;
• 	 Federal Information Processing Standard 199, Standards for Security Categori:z.ation of
    Federal Information and Information Systems; and
• 	 Other criteria as appropriate.

In conducting the audit, we relied to varying degrees on computer-generated data. Due to time
constraints, we did not verify the reliability of the data generated by the various information
systems involved. However, nothing came to our attention during our audit testing utilizing the
computer-generated data to cause us to doubt its reliability. We believe that the data was
sufficient to achieve the audit objectives. Except as noted above, the audit was conducted in
accordance with generally 'accepted government auditing standards issued by the Comptroller
General of the United States.                                                             '

The audit was performed by the OPM Office of the Inspector General, as established by the
Inspector General Act of 1978, as amended. The audit was conducted from April through July
2009, in OPM's Washington, D.C. office.

                    Compliance with Laws and Regulations
In conducting the audit, we performed tests to determine whether CSEA's management ofISMS
is consistent with applicable standards. Nothing came to the OIG's attention during this review
to indicate that CSEA is in violation of relevant laws and regulations.




                                                3

                                                  Results 

     This section details the results of our audit of ISMS.

I.        Certification and Accreditation

          OPM's legacy physical security system, ldentipass, was decommissioned on January 23,
          2009, and was replaced by the new ISMS system on that date.

          The security certification process for ISMS was facilitated by contractors from the
          Department of Treasury's Bureau of Public Debt (BPD). On January 22; 2009, a
          representative from BPD signed a memorandum stating that the security certification work
          was complete, and that the package was ready for official certification and accreditation via
          the signing of a certification letter and accreditation memo. On January 23, the ISMS
          Designated Accrediting Authority (DAA) signed an accreditation statement authorizing the
          system to operate. However, a certification letter had not been signed at this time. The
          certification letter for ISMS was signed retroactively by OPM's acting Information
          Technology Security Officer (ITSO) on March 30, 2009.

          NIST SP 800-37 suggests that the certification agent, which at OPM has traditionally been
          the ITSO, review the complete certification package prior to accreditation phase. The
          authorizing official relies on the ITSO' s input from the security accreditation phase to
          determine the risk to agency operations, agency assets, or individuals.

          For future C&As ofISMS,the ITSO should review the certification package and sign the
          certification statement prior to presenting the package to the DAA for authorization.

II.       . Federal Information Processing Standards Publication 199 Analysis

          FIPS Publication J99, Standards for Security Categorization of Federal Information and
          Information Systems, requires the formal categorization of information systems to ensure
          that the appropriate levels of information security controls are implemented.

          NISI SP 800-60 Volume I "Guide for Mapping Types of Information Systems to Security
          Categories," provides an overview of the security objectives and impact levels identified in
          FIPS Publication 199.

          Ihe security categorization analysis for ISMS considered the potential level of impact (low,
          moderate, high) that would result from a loss of confidentiality, integrity, or availability of
          the system.

          The OIG determined that this evaluation was compliant with FIPS Publication 199 and
          NIST requirements, and agrees with the overall security categorization of moderate lor
          ISMS.




                                                      4

III.   Information System Security Plan
       FIPS Publication 200, Minimum Security Requirements for Federal Information and
       Information Systems, specifies the security requirements that mu~i be.implemented on all
       federal information systems. Federal agencies must implement the minimum security
       requirements defined in FIPS Publication 200 through the use of the security controls
       outlined in NIST SP 800-53, Recommended Security Controls for Federal Information
       Systems. NIST SP 800-18 Revision 1, Guide for Developing Security Plans for Federal
       Information Systems, requires that these controls be documented in an information systems
       security plan (ISSP) for each system, and provides guidance for doing so.

       BPD developed the ISSP for ISMS utilizing the security plan template outlined in NIST SP
       800-18. The ISMS ISSP was reviewed and approved by the system's Designated Security
       Officer (DSO) and DAA on January 23, 2009. In accordance with NIST SP 800-18, the
       ISMS ISSP contained the following elements:
       •   System Name and Identifier;
       •   System Categorization;
       •   System Owner;
       •   Authorizing Official;
       •   Assignment of Security Responsibility;
       •   System Operational Status;
       •   Information System Type;
       •   General DescriptionlPurpose;
       •   System Envirorunent;
       •   System Interconnection/Information Sharing; and
       •   Laws, Regulations, and Policies Affecting the System.

       The ISSP also outlines the information security controls that are implemented or planned to
       be implemented for ISMS. For each of the 17 security control families outlined in NIST
       SP 800-53, the ISMS security plan describes the manner in which these control objectives
       are satisfied for this system.

IV.    Independent Security Control Testing and Risk Assessment
       As part of.the C&A process, BPD conducted a risk assessment and security control testing
       and evaluation for ISMS. We believe that the testing and evaluation by BPD addressed the
       critical elements suggested for the risk assessment process by NIST SP 800-30, Risk
       Management Guide for Information Technology Systems.

       BPD developed a Security Assessment Plan (SAP) to document the methodology and
       scope for the security control testing. The SAP outlines the various assessment methods to
       be used during the review, and details the procedures to be followed during the risk
       assessment activities. The testing procedures included, but were not limited to, examining
       and reviewing assessment objects, interviewing individuals with ISMS security and
       operational responsibility, and exercising assessment objects under specified conditions to



                                                 5

      compare actual with expected behavior. BPD also conductcd an automated vulnerability
      scan of the servers housing ISMS using Retina network vulnerability scanner.

      The security control testing was conducted by BPD employees who are independent from
      ISMS and the CSEA program office that owns the system. BPD created a baseline of
      security controls that are applicable to ISMS based on its FIPS Publication 199 security
      categorization of ' moderate.' The tested security controls were derived from NIST SP 800­
      53 Revision 2, Recommended Security Controls for Federal Information Systems. The
      OIG verified that the appropriate controls were included in the scope of this review. For
      each tested control, BPD determined whether the control objective was fully satisfied,
      partially satisfied, or not applicable.

      The results of the security control testing were recorded in a Security Assessment Report
      (SAR). The SAR contains assessment ofthe risk associated with the security weaknesses
      found during the assessment along with recommendations for addressing these
      weaknesses. The vulnerabilities and weaknesses detected during the testing process were
      grouped into 14 itemized findings, each weighted with a high, medium, or low risk rating.
      These findings were appropriately transferred to the ISMS POA&M.

V.    Security Control Self-Assessment

      FISMA requires that the NIST SP 800-53 security controls of eaeh federal information
      system be tested on an annual basis. In December 2008, an independent contractor
      conducted a test ofISMS's management, operational, and technical controls as outlined in
      NIST SP 800-53. Therefore, an internal self-assessment of these controls was not required
      in fiscal year (FY) 2009. The OIG will verify that a self~assessment ofNIST SP 800-53
      controls is conducted for this system in FY 2010 as part of the 20 I 0 general FISMA audit
      process.

      See section IV for a review of the independent security controls test for ISMS,

VI.   Contingency Planning

      NIST SP 800-34, Contingency Planning Guide for IT Systems, states that effective
      contingency plarming, execution, and testing are essential to mitigate the risk of system and
      service unavailability. The OPM IT security policy requires that OPM general support
      syStems and major applications have viable and logical disaster recovery and contingency
      plans, and that these plans he annually reviewed, tested, and updated.

      CSEA has documented a contingency plan for ISMS that contains procedures to recover
      the system following a disruption. Although the ISMS contingency plan contains the
      majority of critical elements suggested by the NIST guide, several areas of the contingency
      plan could be improved with additional details and more specific instructions.

      Two steps \vithin the contingency plan's procedures to return to normal operations are to
      "Install latest application code on application servers" and to "Test application to ensure



                                                 6

business needs are met ...." However, tbere are no further instructions on how these steps
should be completed.

Failure to itemize thc detailed steps involved in the reeovery process increases the risk that
the recovery team will encounter problems or delays in restoring the system. NIST SP
800-34 states that "Recovery procedures should be written in a straightforward, step-by­
step style. To prevent difficulty or confusion in an emergency, no procedural steps should
be assumed or omitted. A checklist format is useful for documenting the sequential
recovery procedures and for troubleshooting problems jfthe system cannot be recovered
properly."

In addition, the ISMS contingency plan establishes several teams assigned to participate in
recovering ISMS operations, but the contact list (call tree) within the document does not
identifY which individuals are assigned to the various teams. Failure to properly assign
individuals to specific teams increases the risk that recovery team members will not be
aware of their specific responsibilities in a disaster recovery situation. NIST SP 800-34
states that "Personnel to be notified should be clearly identified in the contact lists
appended to the plan. This list shOUld identifY personnel by their team position, name, and
contact information (e.g., home, work, and pager numbers, e-mail addresses, and home
addresses)."

The ISMS contingency plan was tested on May 28, 2009. The test was a table-top exercise
that involved a simulated walkthrough of the steps outlined in the contingency plan.
Although CSEA documented the simulated results for each component of the contingency
plan, the testing report did not contain the detailed step-by-step approach suggested by
NIST guidance.

Recommendation 1
We recommend that CSEA continue to develop and improve the ISMS contingency plan.
This includes, but is not limited to, adding specific and detailed steps to the recovery
procedures and assigning specific individuals to the various recovery teams. CSEA should
conduct another test of the contingency plan after the plan has been modified.

CSEA Response:
"Concur. The ISMS contingency plan will continue to be developed and improved as the
system and network evolve and lessons learned result ill continued improvements. The
current ISMS COlltingency Plan has been updated to include specific recovery steps and
to assign speci}zc individuals to roles alld teams. Afollow-up exercise was conducted to
test the added procedures. Updated Contingency Plan and most recent Contingency Plan
test results are included in the accompanying data disc. "

OIG Reply:
We acknowledge the steps CSEA has taken to improve the ISMS contingency plan.
However, the updated version of the contingency plan continues to lack specific




                                            7
     instructions for several recovery procedures. For example, one step reads "Test all
     applications associated with the entire ISMS," but no further instructions are provided.

     In addition, the updated contingency plan does not assign specific individuals to the four
     recovery teams (data management team, storage recovery team, applications recovery team,
     and business interface team). Job titles were added for each individual on the call tree, but
     there is no indication of which team these individuals are assigned to.

     We continue to recommend that CSEA improve the contingency plan for ISMS. We will
     follow up on the status of this recommendation as part of the FY 2010 FISMA audit.

VII. Plan of Action and Milestones Process

     As part of the C&A Process, BPD provided CSEA with a POA&M document outlining 14
     security weaknesses detected during the C&A security control testing. All weaknesses and
     vulnerabilities detected during the C&A process were appropriately included on the ISMS
     POA&M. Although this POA&M generally adhered to the POA&M format required by
     OPM's CIS, the ISMS POA&M did not prioritize the identified security weaknesses.

     On March 13, 2009, CSEA updated the ISMS POA&M and submitted it to CIS for the FY
     2009 second quarter FISMA report to OMB. The March 13 POA&M indicated that all 14
     weaknesses had been addressed.

     For each of the security weaknesses labeled as "closed", the OIG verified that adequate
     "proof of closure" (evidence that the weakness has been alleviated) was provided to OPM's
     CIS. The OIG also independently verified that the proof of closure documentation
     adequately supports CSEA's position that each of the controls is now in place.

    . . Recommendation 2
     We recommend that ISMS edit its POA&M template to facilitate the prioritization of
     weaknesses.

     CSEA Response:
     "Concur. CSEAhas edited its current POA&M list, which serves as the CSEA ISMS
     POAM template, to include a column called 'PrioritylRisk' to faciluate a risk-based
     prioritization ofremediation activities. A copy ofthe current CSEA ISMS POA&M List
     is included in the accompanying data disc. "

      OIG Reply:
     We acknowledge the steps that CSEA has taken to improve the ISMS POA&M. No further
     action is required.




                                                8

VIII. NIST SP 800-53 Evaluation

     NIST SP 800-53 provides guidance for implementing a variety of security controls for
     information systems supporting the federal government. The 010 tested a subset of these
     controls for ISMS as part of this audit, including:

     •   AT-3: Security Training                       •   CP-3: Contingency Plan Testing
     •   AU-J: Audit and Accountability                •   IA-4: Identifier Management
     •   AU-2: Auditable Events                        •   MP-5: Media Transport
     •   CA-2: Security Assessments                    •   PE-2: Physical Access Authorizations
     •   CA-4: Security Certification                  •   PE-8: Access Records
     •   CA-5: Plan of Action and Milestones           •   PL-2: System Security Plan
     •   CA-6: Security Accreditation                  •   PL-4:. Rules of Behavior
     •   CM-3: Configuration Change Control            •   PL-5: Privacy Impact Assessment
     •   CM-4: Monitoring Configuration Changes        •   PSA: Personnel Termination
     •   CM-6: Configuration Settings                  •   RA-5: Vulnerability Scarming
     •   CP-2: Contingency Plan                        •   SC-2: Application Partitioning

     These controls were evaluated by interviewing individuals with ISMS security
     responsibilities, reviewing documentation and system screenshots provided by CSEA,
     viewing demonstrations of system capabilities, and conducting tests directly on the system.

     Although it appears that CSEA has successfully implemented the majority ofNIST SP 800­
     53 security controls for ISMS, several tested controls were not fully satisfied:

     a) AU-J Audit and Accountability Policy and Procedures
         CSEA has established audit procedures for ISMS that state the system administrator
         must review audit logs on a weekly basis to search for suspicious activity.
         However, during the fieldwork phase of this audit, there was a single system
         administrator with the ability to retrieve system logs, and no procedures in place to
         review the activity of this administrator. The administrator was the only individual
         with the ability to change ISMS's sensitive application-level settings, and was also the
         only individual capable of reviewing this activity. A second individual has since been
         assigned administrator privileges.

         NIST SP 800-53 Revision 2 requires that each system have a "formal, documented,
         audit and accountability policy that addresses purpose, scope, roles, responsibilities,
         management commitment, coordination among organizational entities, and
         compliance ...."

         Recommendation 3
         We recommend that CSEA expand the ISMS audit procedures to include a process for
         reviewing the activities of the system administrator.




                                                 9
   CSEA Response:
   "Concur. An update was made to tlte CSEA ISMS Audit Procedures, which define the
   role ofan Alternate System Administrator and the responsibility and processlprocedures
   10 review the ISMS audit logs on at least a monthly basis. The updated audit procedures
   are included in the accompanying data disc."

   OIG Reply:
   We acknowledge the steps tlm! CSEA has taken to improve the ISMS audit procedures.
   No further action is required.

b) IA-4 Identifier Management
   ISMS user accounts exist that are shared by multiple individuals. Although the
   accounts were not administrator accounts, they did have access privileges that, if
   abused, could jeopardize ISMS's ability to ensure physical security of aPM facilities.
   Although one shared account was disabled during the fieldwork portion of this audit, a
   second shared account still exists.

   NIST SP 800-53 Revision 2 states each system must uniquely identify each user.

   Recommendation 4
   We recommend that CSEA disable all shared user accounts for ISMS, and enforce the
   use of individual accounts for all users.

   CSEA Response:
   "Concur. All shared accounts have been disabled or deleted. A screen shot (ISMS
   User ReporI6-29-09.pdj) is included in the accompanying data disc."

   OIG Reply:
   We acknowledge the steps that CSEA has taken to disable shared user accounts. No
   further action is required.

c) CM-3/6 Configuration Change Control/Configuration Settings
   CSEA has established account management procedures for ISMS that state
   "Configuration management responsibilities include maintaining an updated baseline
   configuration for the ISMS (C*CURE) applications and then tracking changes as they
   occur." However, no baseline configuration exists. In addition, although ISMS
   automatically logs changes to configuration settings, no procedures exist to fonnally
   approve and manage configuration changes.

   NIST SP 800-53 states that organizations should document a system's baseline
   configuration settings, a.nd manage configuration changes using a process that involves
   fonnally evaluating and approving each change.




                                         10
   Recommendation 5
   We recommend that CSEA document a baseline configuration for ISMS's application
   level settings and develop procedures for requesting and approving changes to these
   settings,

   CSEA Response:
   "Concur. The baseline configuration for ISMS has been developed and procedures for
   Configuration Management are contained in section 4.B ofthe updated 'CSEA ISMS,
   System and Account Management Procedures' dated July6, 2009."

   DIG Reply:
   Although the updated System and Account Management Procedures contain procedures
   for requesting and approving configuration changes, CSEA's response to the draft
   report did not contain evidence indicating that a baseline system configuration has been
   documented.

   We continue to recommend that CSEA document a baseline configuration for ISMS's
   application level settings. We will follow up on the status of this recommendation as
   part of the FY 2010 FISMA audit.

d) PL-4 Rules of Behavior
   CSEA has established a set of rules for ISMS that descri bes their responsibilities and
   expected behavior with regard to information system usage. However, not all ISMS
   users have formally acknowledged their understanding of the rules of behavior.

   NIST SP 800-53 states that system owners must receive "signed acknowledgement
   from users indicating that they have read, understand, and agree to abide by the rules of
   behavior ...."

   Recommendation 6
   We recommend that CSEA have all ISMS users sign the rules ofbehavior document.

   CSEA Response: 

   "Concur. All ISMS users (federal employees and contract guard personnel) have signed 

   the Rules ofBehavior document." 


   OIGReplv: 

   We acknowledge the steps that CSEA has taken to have ISMS users sign a rules of
   behavior document. No further action is required.




                                          11 

                            Major Contribntors to this Report 


This audit report was prepared by the U.S. Office OfPCISOJffi¥l Management, Office ofInspector
General, lnfonnation Systems Audits Group. _The following individuals participated in the audit
and the preparation of this report :

•                   Group Chief
•                     Auclitor-in-Charge




                                              12 

                                         Appendix 

                                                                   July IS, 2009

MEMORANDUM 


                        lllfonnation Systems Audit Group
                        Office of Inspector General

FROM: 


                        Center for Security and Emergency Actions

Subject: 	              CSEA Response to OPM Office of Inspector General (OIG) Draft
                        Report No. 4A-CI-00-09-S2, June 25, 2009.


The Center for Security and Emergency Actions has reviewed the OIG's draft audit
report and concurs with the Inspector General's six recommendations to improve the
security posture of the Integrated Security Management System (ISMS). The remainder
of thrs memorandum references the individual recommendations and CSEA'$ actions to
implement them.

Evidence suppo.rting the implementation of OIG recommendations are provided on a
data disk with this report (Folder: CSEA ISMS OIG Response, July 2009).

Recommendation 1: 

Devdop and improve the ISMS contingency plan to include, but not limited to: 

   a. Adding specific and detailed steps to recovery procedures.
   b. Assign specific individuals to the variolls recovery teams.
  c. Conduct a follow-up test of the contingency plan after modifications.

       Response: Concur
The ISMS contjngcncy plan wiJl continue to be developed and improved as the system and
network evolve and lessons learned result in continued improvements. The current iSMS
Contingency Plan has been updated to include specific recovery steps and to assign specific
individuals to roJes and teams. A follow-up exercise was conducted to test the a.dded procedures.
Updated Contingency Plan and most recent Contingency Plan test results are included in tbe
accompanying data disc.

Recommendation 2: 

oro recommends that ISMS edit its POA&M template to facilitate the prioritization of 

weaknesses. 

        Response: Concur
CSEA has edited its current POA&M list, which serves as the CSEA ISMS POAM template, to
include a column caBcd "PrioritylRisk" to facilitate a risk-based prioritization of remediation
activities. A copy of the current CSEA ISMS POA&M List is included in the accompanying 

data disc. 


Recommendation 3: 

OIG recommends that CSEA expand the ISMS audit procedures to include a process for reviewing 

the activities of the system administrator. 


       Response: Concnr
An update was made to the CSEA ISMS Audit Procedures, which define the role of an Alternate
System Administrator and the responsibility and process/procedures to review the ISMS audit logs
on at least a monthly basis. The updated audit procedures are included in the accompanying data
disc.

Recommendations 4: 

OIG recommends that CSEA disables all shared accounts for ISMS, and enforce the use of 

individual accounts for all users. 


       Response: Concur
All shard accounts have been disabled or deleted. A screen shot (ISMS User Report 6-29-09.pdf)
are included in the accompanying data disc.

Recommendation 5: 

OIG recommends that CSEA document a baseline configuration for ISMS's application level 

settings, and develop procedures for requesting and approving changes to these settings. 


       Response: Concur
The .baseline configuration for ISMS has been developed and procedures for Configuration
Management are contained in section 4.B of the updated "CSEA ISMS, System and Account
Man[lgement Procedures." dated July 6, 2009.                             .

Recommendation 6: 

OIG recommends that CSEA have all ISMS users sign the rules of behavior documents. 


       Response: Concur
All ISMS users (federal employees and contract guard personnel) have signed the Rules of Behavior
document.
